App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NILESH BHARATKUMAR
KUMAR,
Petitioner-Appellant,
v.
UNITED STATES OF
AMERICA,
Respondent-Appellee.

No. 18-55972
D.C. Nos.
8:18-cv-00421-RGK
8:09-cr-00132-RGK-3
MEMORANDUM*
(Filed July 16, 2019)

Appeal from the United States District Court
for the Central District of California
R. Gary Klausner, District Judge, Presiding
Submitted July 11, 2019**
Pasadena, California
Before: M. SMITH and FRIEDLAND, Circuit Judges,
and SIMON,*** District Judge.
Nilesh Bharatkumar Kumar appeals the district
court’s denial of his petition for a writ of error coram
nobis. Kumar, a citizen of the United Kingdom,
pleaded guilty in January 2010 to one count of conspiring to use and possess unauthorized access devices
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).
*** The Honorable Michael H. Simon, United States District
Judge for the District of Oregon, sitting by designation.

App. 2
under 18 U.S.C. § 1029(b)(2). He was sentenced in April
2010 to 24 months imprisonment and two years of supervised release, and he was ordered to pay restitution.
Kumar now seeks to collaterally attack his conviction,
arguing that he received ineffective assistance of counsel because his counsel failed to advise him—and then
misadvised him—about the immigration consequence
of his plea. The district court denied Kumar’s petition.
Reviewing de novo, see United States v. Riedl, 496 F.3d
1003, 1005 (9th Cir. 2007), we affirm.
To prevail on a petition for a writ of error coram
nobis, a petitioner must show four things: “(1) a more
usual remedy is not available; (2) valid reasons exist
for not attacking the conviction earlier; (3) adverse consequences exist from the conviction sufficient to satisfy
the case or controversy requirement of Article III; and
(4) the error is of the most fundamental character.” Id.
at 1006 (quoting Hirabayashi v. United States, 828
F.2d 591, 604 (9th Cir. 1987)).
A petitioner may “satisfy the fundamental error
requirement by establishing that he received ineffective assistance of counsel.” United States v. Kwan, 407
F.3d 1005, 1014 (9th Cir. 2005), abrogated on other
grounds by Padilla v. Kentucky, 559 U.S. 356 (2010). To
establish ineffective assistance of counsel, Kumar
must show: (1) “that his counsel’s performance fell below an objective standard of reasonableness,” and (2)
“that the deficiency in his counsel’s performance prejudiced him.” Id. at 1014-15 (citing Strickland v. Washington, 466 U.S. 668, 688, 692 (1984)).

App. 3
Even assuming Kumar has established his counsel’s deficient performance, he has not established
prejudice. To establish prejudice, a petitioner must
demonstrate “a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.’ ” United States v.
Rodriguez-Vega, 797 F.3d 781, 788 (9th Cir. 2015)
(quoting Strickland, 466 U.S. at 694). A “different result” for purposes of establishing prejudice in this
context “means that but for counsel’s errors, [the petitioner] would either have gone to trial or received a
better plea bargain.” Id. (quotation marks omitted). “A
petitioner may demonstrate that there existed a reasonable probability of negotiating a better plea by
identifying cases indicating a willingness by the government to permit defendants charged with the same
or a substantially similar crime to plead guilty to a
non-removable offense.” Id. A petitioner can also satisfy this burden “by showing that she settled on a
charge in a purposeful attempt to avoid an adverse effect on her immigration status.” Id. at 789. We will “not
upset a plea solely because of post hoc assertions from
a defendant about how he would have pleaded but for
his attorney’s deficiencies. [We] instead look to contemporaneous evidence to substantiate a defendant’s expressed preferences.” Lee v. United States, 137 S. Ct.
1958, 1967 (2017).
Kumar fails to provide contemporaneous evidence
to support his assertion that he would not have
pleaded guilty but for any incorrect advice. Kumar
does not assert in his affidavit that he ever asked his

App. 4
counsel about the immigration consequences of a conviction, much less that immigration consequences
were “determinative” to his decision to accept the plea.
See id. at 1963. Kumar therefore has not established
that he would have gone to trial rather than pleaded
guilty, if properly advised.
There is also no reason to believe that Kumar
could have gotten a better, immigration-neutral plea
deal. He has not submitted any evidence that other defendants originally charged with the same or similar
crimes have signed immigration-neutral plea agreements. See Rodriguez-Vega, 797 F.3d at 788. In fact,
the evidence in the record suggests that Kumar
could not have fared any better: to avoid deportation,
Kumar would have needed the Government to stipulate to a loss amount under $10,000. See 8 U.S.C.
§ 1101(a)(43)(M)(i) (an offense that “involves fraud
or deceit in which the loss to the victim or victims
exceeds $10,000” is an “aggravated felony”); id.
§ 1227(a)(2)(A)(iii) (“Any alien who is convicted of an
aggravated felony at any time after admission is deportable.”). But Kumar’s counsel at the plea stage tried
and failed to negotiate an agreement with a lower loss
amount—the prosecutor insisted that a $200,000 loss
amount was appropriate. Kumar has not established
he would have received a better plea bargain, and he
therefore has not met his burden to show that, but for
any asserted errors of counsel, his proceedings would
have ended in a different result.

App. 5
For the foregoing reasons, the district court’s denial of the petition is AFFIRMED.

App. 6
JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No. 8:18-cv-00421-RGK/8:09-cr-00132-RGK-3
Date

May 23, 2018

Title

Nilesh BharatKumar Kumar v.
United States of America

===========================================================================================
Present:
The Honorable

R. GARY KLAUSNER,
UNITED STATES DISTRICT JUDGE

Sharon L. Williams
Deputy Clerk

Not Reported
Court Reporter /
Recorder

N/A
Tape
No.

Attorneys Present
for Plaintiff:

Attorneys Present
for Defendant:

Not Present

Not Present

Proceedings: (IN CHAMBERS) Order Re:
Petition for Writ of Error Coram
Nobis (DE 1)
I.

INTRODUCTION

Nilesh BharatKumar Kumar (“Petitioner”) is a citizen of the United Kingdom who has lived in the
United States since he entered the country in 1991 at
nine years old. In 2009, he was indicted for conspiracy

App. 7
to possess and use unauthorized access devices, in violation of 18 U.S.C. § 1029(b)(2) (count one); use of unauthorized, access devices in violation of 18 U.S.C.
§ 1029 (a)(2) (count two); and unlawful possession of
fifteen or more access devices, in violation of 18 U.S.C.
§ 1029(a)(3) (count three). Petitioner pled guilty to
count one of the indictment on January 8, 2010. Three
months later, the district court sentenced Petitioner to
24 months’ imprisonment, two years’ supervised release, restitution of $145,151.50, and a $100 special assessment.
Because Petitioner’s offense involved fraud and
a loss of over $10,000, it constituted an aggravated
felony under federal immigration law. See 8 U.S.C.
§§ 1101(a)(43)(M)(i). A noncitizen convicted of an aggravated felony is subject to mandatory deportation.
See 8 U.S.C. § 1227(a)(2)(A)(iii); Lee v. United States,
137 S.Ct. 1958, 1963 (2017).
Before the Court is Petitioner’s Petition for Writ of
Error Coram Nobis (“the Petition”), in which he argues
that the Court must overturn his conviction because
his criminal trial attorney provided ineffective assistance of counsel under the Sixth Amendment. Specifically, Petitioner argues his attorney failed to advise
him that his guilty plea would result in mandatory deportation.
Petitioner first raised this claim in an appeal to
the Ninth Circuit filed in May 2010, but the Ninth Circuit held it was inappropriate for direct appeal. About
four years later, Petitioner reasserted his ineffective

App. 8
assistance of counsel argument before this Court in a
motion to vacate, set aside, or correct his sentence under 28 U.S.C. § 2255 (“Section 2255”). The Court held
Petitioner failed to demonstrate prejudice and denied
the motion. The Ninth Circuit rejected Petitioner’s Section 2255 appeal on May 7, 2015. The present Petition
followed nearly three years later, on March 15, 2018.
For the following reasons, the Court DENIES the
Petition.
II.

JUDICIAL STANDARD

The writ of error coram nobis is an extraordinary
remedy that allows a movant to attack an unconstitutional or unlawful conviction after the movant has
served his sentence and is no longer in custody. Estate
of McKinney v. United States, 71 F.3d 779, 781 (9th Cir.
1995). “The writ provides a remedy for those suffering
from the ‘lingering collateral consequences of an unconstitutional or unlawful conviction based on errors
of fact’ and ‘egregious legal errors.’ ” United States v.
Walgren, 885 F.2d 1417, 1420 (9th Cir. 1989) (citations
omitted). The writ permits a court to vacate its judgment when an error has occurred that is of such fundamental character that the proceeding itself is
rendered invalid. McKinney, 71 F.3d at 781. The writ
should be granted “only under circumstances compelling such action to achieve justice.” United States v.
Morgan, 346 U.S. 502, 511 (1954).
To qualify for coram nobis relief, a movant must
establish that: (1) a more usual remedy is not

App. 9
available; (2) valid reasons exist for not attacking the
conviction earlier; (3) adverse consequences resulting
from the conviction satisfy the case or controversy requirement of Article III; and (4) the error suffered is of
the most fundamental character. McKinney, 71 F.3d at
781-82.
III. DISCUSSION
The Government argues that Petitioner failed to
establish (1) that a valid reason exists for waiting
nearly three years after the Ninth Circuit rejected his
Section 2255 appeal to bring his Petition, or (2) that
he suffered a fundamental error. Because the Court
finds Petitioner failed to establish fundamental error, it need not decide whether Petitioner provided a
valid reason for his delay in filing the coram nobis
Petition.
A. Fundamental Error
Petitioner claims his attorney provided ineffective
assistance of counsel by failing to advise him that his
guilty plea would result in mandatory deportation. A
claim of ineffective assistance of counsel may, if proved,
constitute an “error of the most fundamental character” warranting a writ of error coram nobis. See
United States v. Kwan, 407 F.3d 1005, 1014 (9th Cir.
2005). The Supreme Court set forth the test for demonstrating ineffective assistance of counsel in Strickland
v. Washington, 466 U.S. 668 (1984). First, a claimant
must show that, considering all the circumstances, his

App. 10
attorney’s performance fell below an objective standard of reasonableness. Id. at 687-88. Second, he must
establish that he was prejudiced by his attorney’s deficient performance. Id. at 693-94.
It is undisputed that affirmatively misrepresenting the immigration consequences of a client’s guilty
plea may constitute deficient performance. See Kwan,
407 F.3d at 1015. “Where the law is ‘succinct, clear, and
explicit’ that the conviction renders removal [or deportation] virtually certain, counsel must advise his client
that removal is a virtual certainty.” United States v. Rodriguez-Vega, 797 F.3d 781, 786 (9th Cir. 2015) (quoting
Padilla v. Kentucky, 559 U.S. 356, 368-69 (2010)). Deportation is a virtual certainty if “the immigration
statute or controlling case law expressly identifies the
crime of conviction as a ground for removal” Id. at 786
(citing Padilla, 559 U.S. at 369). Under these circumstances, it is not enough to advise of a “mere ‘potential’
of removal.” Id. at 788.
The immigration statute expressly identifies Petitioner’s crime of conviction as a deportable offense. See
8 U.S.C. §§ 1101(a)(43)(M)(i), 1227(a)(2)(A)(iii). Accordingly, Petitioner’s attorney was required to advise him
that his conviction rendered deportation virtually certain. See Rodriguez-Vega, 797 F.3d at 786. The parties
present conflicting evidence regarding what advice Petitioner’s attorney provided. The Court, however, finds
that it need not resolve this dispute, as Petitioner provided insufficient evidence of prejudice. See Strickland,
466 U.S. at 697 (“If it is easier to dispose of an

App. 11
ineffectiveness claim on the ground of lack of sufficient
prejudice, . . . that course should be followed.”).
To show prejudice, a petitioner must demonstrate
that “there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.” Strickland, 466
U.S. at 694. A “reasonable probability” is proof “sufficient to undermine confidence in the outcome” and is
“somewhat lower” than a preponderance of the evidence. Id. Where the petitioner claims ineffective assistance caused him to accept a plea bargain, he can
establish a different result by showing he otherwise
would “have gone to trial or received a better plea bargain.” United States v. Rodriguez-Vega, 797 F.3d 781,
788 (9th Cir. 2015) (quoting United States v. Howard,
381 F.3d 873 (2004)); Lee v. United States, 137 S.Ct.
1958, 1965 (2017). Petitioner asserts that, because of
his strong ties to the United States, he would have insisted on going to trial had he known his plea would
subject him to mandatory deportation.1
The Government first argues that Petitioner cannot establish prejudice because any alleged misadvice
was cured by the Court’s advisements at the change of
plea hearing. The Court disagrees. The Court advised
Petitioner that “[i]n some cases [your plea] can affect
1

Petitioner also asserts that he would have received a better
plea absent his attorney’s alleged misadvice. Other than repeating this assertion in an affidavit, Petitioner presents no actual
evidence or argument to this effect. The Court therefore focuses
its analysis on whether Petitioner would have insisted on going
to trial.

App. 12
citizenship and result in deportation.” (Transcript
11:19-23, Case No. 8:09-cr-00132, ECF No. 261.) Because the Court’s advice merely “notified [Petitioner] of
the possibility of removal, when in fact [his] removal
was virtually certain,” it “did not purge prejudice.”
Rodriguez-Vega, 797 F.3d at 790. The Government insists that Petitioner’s deportation is not virtually certain because there is no evidence that he has actually
received a deportation notice. But the court in Rodriguez-Vega was clear that deportation is “virtually certain” if, as here, a defendant is convicted of an offense
that is expressly identified as deportable under the immigration statute. Id. at 786. Whether or not deportation proceedings have commenced is irrelevant.
The Government next argues that Petitioner cannot show he would have insisted on going to trial but
for his attorney’s alleged misadvice, focusing mainly on
the strength of the Government’s case and the absence
of any viable trial defenses. The Ninth Circuit has
found prejudice “where a non-citizen demonstrates
clearly that [he] placed a ‘particular emphasis’ on the
immigration consequence of a plea in deciding whether
or not to accept it.” Rodriguez-Vega, 797 F.3d at 789.
Even a defendant with no viable trial defense can establish prejudice through clear evidence that “deportation [was] the ‘determinative issue’ for an individual in
plea discussions,” the defendant “had strong connections to [the United States] and no other,” and “the consequences of taking a chance at trial were not
markedly harsher than pleading.” Lee v. United States,
137 S.Ct. 1958,1968-69 (2017).

App. 13
In Rodriguez-Vega, the defendant rejected an earlier plea agreement that contained a stipulated removal provision in an effort to avoid separation from
her family, who lived in the United States. RodriguezVega, 797 F.3d at 789. She had numerous conversations with her attorney regarding the immigration
consequences of her plea before accepting it. Id. In addition, she was only twenty-two years old and faced a
prison term of only ten to sixteen months. Id. at 790.
The court found this evidence sufficient to demonstrate
that the defendant “placed a particular emphasis on
preserving her ability to remain in the United States”
and would have risked trial for a chance to avoid deportation. Id.
In Lee, the Supreme Court found a defendant with
no viable trial defenses nonetheless demonstrated “a
reasonable probability that he would have rejected the
plea had he known that it would lead to mandatory deportation.” Lee, 137 S.Ct. at 1967. First, the evidence
showed deportation was the determinative issue for
the defendant in plea discussions. Id. at 1968. The defendant asked his attorney repeatedly whether there
was any risk of deportation. Id. at 1967. Both the defendant and his attorney testified that he would have
gone to trial had he known his conviction resulted in
mandatory deportation. Id. at 1967-68. When asked at
the plea colloquy whether knowing a conviction could
result in deportation affected his decision, the defendant answered in the affirmative and did not plead
guilty until his attorney reassured him he would not
be deported. Id. at 1968. Second, the evidence showed

App. 14
the defendant had strong connections to the United
States and no foreign ties. Id. The defendant had lived
in the United States for nearly three decades, had two
businesses in the country, and was the only family
member in the country who could care for his parents.
Id. Third, the defendant did not face a markedly
harsher sentence at trial. Id. at 1969. The plea shaved
off merely one or two years of prison time. Id. All of this
evidence together was sufficient to establish prejudice.
Here, Petitioner argues that he likewise placed
particular emphasis on the immigration consequences
of his plea. In support, Petitioner cites his strong family, work, and life ties in the United States. He has lived
in the United States since 1991. His entire immediate
family lives in the United States, including his father,
mother, and sister. He has no family in the United
Kingdom. He works for his father’s business. In addition, Petitioner states in his affidavit that he would
have rejected his plea and taken the case to trial had
he known of the immigration consequences. Finally,
Petitioner argues his attorney’s statements at the sentencing hearing indicated the immigration consequences of his plea were of great importance to
Petitioner.
Petitioner’s evidence is much weaker than that
presented in either Rodriguez-Vega or Lee and falls
short of establishing prejudice. His attorney’s statements at the sentencing hearing do little to advance
Petitioner’s position. At the hearing, his attorney
stated, “If [Petitioner] is sentenced to more than 12
months he gets a prison sentence plus he gets

App. 15
deported,” a result which he argued would not be in the
best interests of Petitioner or the community and
would frustrate his ability to pay restitution. (Sentencing Transcript 4:22-23, Case No. 8:09-cr-00132, ECF
No. 262.) These statements hardly suggest that avoiding deportation was Petitioner’s priority. In fact, Petitioner also spoke at the sentencing hearing and did not
express any concerns about deportation. (Id. at 9:1310:15.) Nor did he indicate any particular concerns
about deportation at his plea colloquy, even when the
Court advised him that he could be deported as a result of pleading guilty. Unlike in Rodriguez-Vega and
Lee, Petitioner presents no evidence that he repeatedly
asked his attorney about the risks of deportation during the course of his representation. In addition, Petitioner’s plea reduced his prison time much more
significantly than the plea agreements in RodriguezVega and Lee. Petitioner’s plea carried a maximum sentence of five years in prison and three years of supervised release, while he faced a maximum penalty of
twenty-five years in prison had he gone to trial. (See
Plea Agreement ¶ 4, Case No. 8:09-cr-00132, ECF No.
94.) This evidence overshadows Petitioner’s strong ties
to the United States and refutes his assertion that he
would have taken the case to trial absent his attorney’s
alleged misadvice.
Absent prejudice, Petitioner cannot establish ineffective assistance of counsel and consequently cannot
establish fundamental error. The Court therefore DENIES the Petition.

App. 16
IV. CONCLUSION
For the foregoing reasons, the Court DENIES the
Petition for Writ of Error Coram Nobis.
IT IS SO ORDERED.
__________ : __________
Initials of Preparer ______________________

